CERTIFICATE OF SERVICE
(28 U. S. C. § 1746)
This is to certify that I, Ruth Ellen Reeves, have sent a signed original, requesting a
new original filing for a Writ of Certiorari and Petition for Emergency Judgment to
Clerk of The United States Supreme Court, Washington DC 20515 by priority mail
with tracking, on August 19, 2020.
A copy of the additional pages included in the new original is sent to the attention
of Kathryn W. Drey, at The United States Attorney's Office, 21 East Garden
Street, Suite 400, Pensacola, FL 32502; on behalf of MarkT. Esper, Secretary of
Defense, et. al.
A copy of the additional pages included in the new original has been sent to CEO,
Mr. Mongell, Fort Walton Beach Medical Center, 1000 Mar Walt Drive, Fort
Walton Beach, FL 32547.
Another copy of the same has been sent to comply with requirements set forth in
(28 U.S.D. § 1746), in regard to the inclusion of all parties listed in the proceeding
in the courts whose judgments are sought to be reviewed, to The Solicitor
General of the United States, Room 5616 -- Department of Justice, at 950
Pennsylvania Avenue, NW, in Washington, DC 20530-0001.

All of the above furnished with a Certificate of Service on August 19, 2020 by
U.S.P.S.

CERTIFICATE OF SERVICE
(28 U. S. C. § 1746)
This is to certify that I, Ruth Ellen Reeves, have sent a signed original, requesting a
Writ of Certiorari and Petition for Emergency Judgment to Clerk of The United
States Supreme Court, Washington DC 20515 by priority mail with tracking, as per
your letter dated July 15, 2020.
A copy of the corrected Constitutionally Relevant Questions is sent to the
attention of Kathryn W. Drey, at The United States Attorney's Office, 21 East
Garden Street, Suite 400, Pensacola, FL 32502; on behalf of Mark T. Esper,
Secretary of Defense, et. al.
A copy of the corrected questions has been sent to CEO, Mr. Mongell, Fort
Walton Beach Medical Center, 1000 Mar Walt Drive, Fort Walton Beach, FL
32547.
Another copy of the same has been sent to comply with requirements set forth in
(28 U.S.D. § 1746), in regard to the inclusion of all parties listed in the proceeding
in the courts whose judgments are sought to be reviewed, to The Solicitor
General of the United States, Room 5616 -- Department of Justice, at 950
Pennsylvania Avenue, NW, in Washington, DC 20530-0001.

All of the above furnished with a Certificate of Service on July 21, 2020 by U.S. P.S.

Additional Certificate of Service becomes page 31 of formerly 30 pages

CERTIFICATE OF SERVICE
(28 U. S. C. § 1746)
This is to certify that I, Ruth Ellen Reeves, have sent a signed original (on top) and
ten copies, requesting a Writ of Certiorari and Petition for Emergency Judgment
to Clerk of The United States Supreme Court, Washington DC 20515 by priority
mail with tracking.
A copy of the same is sent to the attention of Kathryn W. Drey, at The United
States Attorney's Office, 21 East Garden Street, Suite 400, Pensacola, FL 32502;
on behalf of Mark T. Esper, Secretary of Defense, et. al.
Four copies have been sent to The United States District Court of Appeals for the
11th Circuit, 56 Forsyth Street NW, Atlanta, GA 30303 by priority mail with
tracking.
A copy has been sent to CEO, Mr. Mongell, Fort Walton Beach Medical Center,
1000 Mar Walt Drive, Fort Walton Beach, FL 32547.
Another copy of the same has been sent to comply with requirements set forth in
(28 U.S.D. § 1746), in regard to the inclusion of all parties listed in the proceeding
in the courts whose judgments are sought to be reviewed, to The Solicitor
General of the United States, Room 5616 -- Department of Justice, at 950
Pennsylvania Avenue, NW, in Washington, DC 20530-0001.

All of the above furnished on July 11,2020 by U.S. P.S.

30 of 30

Additional material
from this filing is
available in the
Clerk's Office.

